February 26, 2010

JERRY LANE
VICE PRESIDENT, CAPITAL METRO AREA

SUBJECT: Audit Report – Capital Metro Area: Reducing Pieces at Risk
         (Report Number DA-AR-10-001)

This report presents the results of our self-initiated audit related to Delivery Bar Code
Sorter (DBCS) pieces at risk1 in the Capital Metro Area (Project Number
09YG041DA000). This review is part of our initiative to conduct risk-based audits on a
continuous basis. Our objective was to identify opportunities to reduce DBCS pieces at
risk in the Capital Metro Area. The primary component of mailpieces at risk is rejected
mail that results in manual rehandling. See Appendix A for additional information about
this audit.

Conclusion

The U.S. Postal Service’s annual pieces at-risk target for DBCS mail is 2 percent of total
pieces handled. For the 2-year period ending September 30, 2009, Capital Metro pieces
at risk averaged 3.1 percent, 55 percent higher than the target. Capital Metro
processing plants did not achieve the pieces at-risk target, because electronic
technicians and maintenance supervisors were unaware of the management
maintenance order (MMO) used to diagnose and reduce DBCS pieces at risk. In
addition, not all DBCS staff was properly trained, and maintenance supervisors did not
ensure preventive maintenance routines were completed properly to bring at-risk pieces
within operational quality standards.

As a result, the Capital Metro area incurred excess mailpiece rejects that required
manual processing. This cost the Capital Metro Area approximately $1.0 million for the
2-year period ending September 30, 2009. The Capital Metro Area can avoid incurring
an additional $1.1 million over the next 2 years by addressing these issues. See
Appendix B for our detailed analysis.

We recommend the area vice president, Capital Metro Area:

1. Instruct electronic maintenance technicians to adhere to Maintenance Management
   Order MMO-044-07 when diagnosing Delivery Bar Code Sorter pieces at risk.

2. Instruct Delivery Bar Code Sorter operators to follow letter mail operational
   standards for quality.

1
    Pieces at Risk are mailpieces that are at risk of not reaching their destination in their allocated time.
Capital Metro Area:                                                        DA-AR-10-001
 Reducing Pieces at Risk



3. Require that maintenance supervisor’s ensure preventive maintenance routines are
   completed in accordance with Maintenance Management Order MMO-013-05.

Management’s Comments

Management concurred with the findings and recommendations pertaining to reducing
DBCS pieces at risk. Management is addressing maintenance deficiencies by
requesting each district manager comply with MMO-044-07 and MMO-013-05. Plant
managers are also ensuring that DBCS personnel are properly trained and fully
understand pieces at risk in order to comply with operational quality standards. In
addition, the area maintenance staff will continue to review and monitor at risk
performance to provide guidance and protect service. Management agreed in principle
that monetary impact exists and committed to capturing potential savings by
implementing efficiencies. See Appendix C for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering, or me at (703) 248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
for Support Operations

Attachments

cc: Edward Gamache
    Sally K. Haring




                                           2
Capital Metro Area:                                                                                         DA-AR-10-001
 Reducing Pieces at Risk



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

We identified mailpieces at risk in the Capital Metro Area as part of our initiative to
conduct risk-based audits on a continuous basis. Pieces at risk are mailpieces that are
at risk of not reaching their destination in their allocated time. The primary component of
mailpieces at risk is rejected mail that results in manual rehandling. Mail is processed
manually when it is rejected by or cannot be processed by machinery. Manual mail
processing increases costs and is not as timely as automation.2

The DBCS, a multilevel, high-speed bar code sorter, is one of the critical pieces of
automation equipment in Postal Service processing plants. Implementation of the
delivery point bar code allows the DBCS to sort mail in carrier walk sequence,
eliminating the need for additional sorting at the delivery unit. Letter trays of sequenced
mail are expected to be transported by the carrier directly to the vehicle for delivery.

Plant operations are responsible for planning, staffing, and operating DBCS machines
according to prescribed standards. The maintenance management function at each
processing plant is responsible for ensuring DBCS machines run at optimal levels. Both
functions have responsibilities for minimizing pieces at risk.

The following systems provide information to help management effectively and
efficiently operate DBCS equipment to process letter mail.

          The Web End of Run (WebEOR) system reproduces, archives, and summarizes
           information captured during a mail processing run. WebEOR offers standard
           reports on operations, maintenance, and machine configuration data.

          The Mail Image Reporting System (MIRS) summarizes pieces at risk captured
           during a mail processing run. MIRS also offers a number of standard reports,
           including reports for operations, maintenance, and machine summary data.

          The Electronic Maintenance Activity Reporting & Scheduling system is used to
           modernize the maintenance management information system and update the
           maintenance support function to meet new organizational requirements.




2
    The FY 2009 cost per hour is $39 for manual letters while the cost to process using automation is $9.


                                                            3
Capital Metro Area:                                                                                   DA-AR-10-001
 Reducing Pieces at Risk



OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to identify opportunities to reduce pieces at risk for the DBCS.
We reviewed the Capital Metro Area because pieces at risk exceeded targets. To
accomplish our objective we performed site visits at the Capital Metro Area mail
processing facilities and interviewed plant personnel. In addition, we analyzed the
maintenance completion rates for each district within the Capital Metro Area for DBCS
operations for the 2-year period ending September 30, 2009. We also reviewed letter
mail gross acceptance and reject rates as described in the Postal Service’s DBCS
Standardization Work Instruction. To determine cause, we analyzed pieces at-risk
reports for each site in the Capital Metro Area. To calculate the monetary impact, we
limited our analysis to Delivery Point Sequence (DPS)3 mailpiece rejects that must be
processed manually at delivery units.

We conducted this performance audit from September 2009 through January 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on November 23, 2009, and included their
comments where appropriate.




3
  DPS is the automation process used to sort mail in carrier walk sequence. The costs of reprocessing mailpiece
rejects at plants were captured under a prior OIG report. Therefore, our analysis and monetary impact calculation
was based on second pass DPS mailpiece rejects, which are processed manually at the delivery units.


                                                          4
    Capital Metro Area:                                                                DA-AR-10-001
     Reducing Pieces at Risk



    PRIOR AUDIT COVERAGE

    The U.S. Postal Service Office of Inspector General (OIG) previously issued the
    following reports related to preventive maintenance and reject rates associated with
    letter mail operations.

                                          Final
                            Report       Report
    Report Title           Number          Date                      Report Results
Fort Worth District      DA-AR-08-009   8-29-2007   The audit determined the Fort Worth District
Equipment                                           generally met targets for preventive
Maintenance                                         maintenance of letter mail processing
                                                    equipment (MPE); however, opportunities
                                                    existed to increase preventive maintenance
                                                    completion rates to meet national standards at
                                                    three of the district’s five mail processing sites.
                                                    In addition, excessive pieces at risk and
                                                    mailpiece rejects indicated opportunities to
                                                    increase equipment performance to meet
                                                    operational targets. Management concurred
                                                    with our finding and recommendations.
Philadelphia             DA-AR-09-003   1-14-2009   The Philadelphia Metropolitan District did not
Metropolitan District:                              meet targets for daily and weekly preventive
Overall Equipment                                   maintenance of MPE. In addition, excessive
Effectiveness                                       pieces at risk and mailpiece rejects indicated
                                                    opportunities to increase equipment
                                                    performance. Addressing these issues at mail
                                                    processing sites could have lowered costs by
                                                    an additional $5 million for the year ending
                                                    June 30, 2008, and would lower mail
                                                    processing costs by $10 million over the next 2
                                                    years. Management concurred with our finding
                                                    and recommendations.




                                                5
Capital Metro Area:                                                                                  DA-AR-10-001
 Reducing Pieces at Risk




                                APPENDIX B: DETAILED ANALYSIS

Pieces at Risk

In March 2007, the Postal Service established “At-Risk and Out-of-Sequence Goals.”
Achieving these goals is critical for Postal Service performance and cost management
success. As shown in Chart 1, each district in the Capital Metro Area exceeded the
DBCS pieces at risk target of 2 percent of total pieces handled.
 
                   Chart 1. Capital Metro Area Mailpieces at Risk




            Source: MIRS 10/1/2007 – 9/30/2009

Postal Service operational standards also call for limiting DBCS DPS mailpiece rejects4
to approximately 0.4 percent of total pieces handled. As shown in Chart 2, each district
in the Capital Metro Area also exceeded this target.




4
  The costs of processing mailpiece rejects at plants were captured under a prior OIG report. Therefore, our analysis
and monetary impact calculation was based on second pass DPS mailpiece rejects which are processed manually at
the delivery units.


                                                         6
Capital Metro Area:                                                                                    DA-AR-10-001
 Reducing Pieces at Risk




                       Chart 2. Capital Metro Area DPS Mailpiece Rejects




             Source: Enterprise Data Warehouse/End of Run 10/01/07 – 9/30/2009


Causes for Excessive Pieces At Risk and Mailpiece Rejects

Postal Service policies set standards for maintaining and effectively operating
equipment. MMOs outline the preventive maintenance procedures districts must
perform. Operational standards and guides give instructions for increasing productivity,
reducing missorted mail, and controlling costs. According to MMO-044-07, proper
maintenance and operational procedures will result in reduced jams and unexpected
machine malfunctions, significantly reducing pieces at risk. None of the 9 plants visited5
in the Capital Metro Area demonstrated that electronic maintenance technicians or
maintenance supervisors were knowledgeable of the standards to reduce pieces at risk.
This contributed to equipment adjustments that resulted in excessive pieces at risk and
mailpiece rejects. Finally, supervisors did not perform the daily preventive maintenance
inspections (MMO-013-05) to ensure maintenance quality.




5
  We conducted site visits at the following Capital Metro plants; Merrifield Processing and Distribution Center (P&DC),
Dulles P&DC, Richmond P&DC, Charlotte P&DC, Ashville P&DC, Greenville P&DC, Hickory P&DF, Suburban MD
P&DC, and Columbia P&DC.


                                                          7
Capital Metro Area:                                                                                DA-AR-10-001
 Reducing Pieces at Risk




Opportunity to Lower Mail Processing Costs

As shown in Chart 3, the Capital Metro Area has the opportunity to lower mail
processing costs by minimizing pieces at risk and subsequent rejects. Excessive
machine DPS mailpiece rejects contribute to higher processing costs, because the
rejected mailpieces are processed manually at the delivery units. For the period ending
September 30, 2009, the cost per hour to manually process letter mailpieces was
$39.356. Recognizing the tolerance for rejects, the cost of excessive DPS mailpiece
rejects for FY 2008 and FY 2009 totaled $1,011,280 for the Capital Metro Area. Since
these costs are also avoidable in the next 2 years, we are claiming $1,079,676 as funds
put to better use.

        Chart 3. Capital Metro Area: Financial Impact of DPS Mailpiece Rejects

                                                                        FY 2008 Cost of       FY 2009 Cost
                                 Number of        Excess Machine         Excess DPS          of Excess DPS
              District            Machines            Rejects               Rejects              Rejects
    Baltimore                         78                2,478,453               $73,865              $37,451
    Capital                           69                4,443,374               112,097               88,491
    Greater South Carolina            50                3,261,247               102,849               43,342
    Greensboro                        66                2,120,225                72,293               22,477
    Mid-Carolinas                     50                2,754,210                84,392               39,194
    Northern Virginia                 66                4,053,580               120,845               61,215
    Richmond                          59                3,386,627                87,720               65,049
    Grand Total                      438               22,497,716             $654,061             $357,219
    Total Unrecoverable Questioned Costs7                                                         $1,011,280
    Funds Put to Better Use8 (2 Years)                                                            $1,079,676




6
  The hourly labor rate for a fully loaded city carrier is $37.45 for FY 2008 and $39.35 for FY 2009.
7
  Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
8
  Funds that could be used more efficiently by implementing recommended actions. Labor rate escalated by
1.3 percent for FY 2010 and FY2011.


                                                        8
Capital Metro Area:                                        DA-AR-10-001
 Reducing Pieces at Risk


                       APPENDIX C. MANAGEMENT’S COMMENTS




                                       9
Capital Metro Area:             DA-AR-10-001
 Reducing Pieces at Risk




                           10
